CERTIFICATE OF COMPLIANCE
No.

JOHN PATERNO,
Petitioner,
– against –
CITY OF NEW YORK, NEW YORK CITY DEPARTMENT OF TRANSPORTATION
and POLLY TROTTENBERG,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 4,589 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
Sworn to on this 30th day of
September, 2019

